OIG Investigative Reports Press Release Scranton, PA., 03/05/2013 - Former Intermediate Unit Executive Director Fred R. Rosetti Sentenced To 33 Months' Imprisonment
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
MIDDLE DISTRCIT OF PENNSYLVANIA
NEWS
Former Intermediate Unit Executive Director Fred R. Rosetti Sentenced To 33 Months' Imprisonment
FOR IMMEDIATE RELEASE
March 05, 2013
The United States Attorney's Office for the Middle District of Pennsylvania announced that the former Executive Director of the Northeastern Intermediate Unit #19 was sentenced today by U.S. District Court Judge Robert D. Mariani to 33 months' imprisonment and a $30,000 fine for fraud and theft.
Judge Mariani ordered Rosetti to make restitution to the NEIU in the amount of $137,944.13 immediately.
During the three-hour sentencing hearing today, the court heard testimony concerning three individuals who told the FBI and investigators from the U.S. Department of Education -  Office of Inspector General that Rosetti had attempted to influence the investigation in conversations that he had with them while the investigation was underway.
The court also heard testimony from two officials from the NEIU, Dr. Clarence Lamanna, the current Executive Director and Tom Rink, the Fiscal Director. Both men testified about the fiscal loss to the Unit caused by Rosetti's activities and the loss of the Unit's reputation.
U.S. Attorney Smith stated that, "The cooperation and support of the investigation provided by the NEIU staff members and the current officials, and especially the statements made today, showed that the vast majority of the staff of the NEIU are dedicated professionals and that Rosetti's admitted abuse of the public trust was something that most of the staff of the NEIU had never approved or accepted."
The indictment returned in February 2012 alleged that between July 1, 1998 through June 30, 2010, Rosetti, age 64, Archbald, engaged in a scheme to defraud the Northeastern Intermediate Unit #19 (NEIU). The indictment charged that during his tenure as Executive Director, Rosetti fraudulently, improperly, and unlawfully converted funds and property of the NEIU for his personal benefit and for the personal benefit of his family.
According to the summary of the evidence presented in court and in filings by Assistant U.S. Attorney Michelle Olshefski, Rosetti directed and ordered NEIU employees to perform home maintenance services at his personal residence, personal secretarial services, personal shopping for Rosetti and his family, and to assist in the planning and preparation of Rosetti family events.
Rosetti created false travel vouchers and directed and ordered NEIU employees to create false travel vouchers for the benefit of Rosetti.
Rosetti also intentionally failed to document his time-off in the form of used vacation, sick and personal days which enabled him to include all of the undocumented time-off in an accumulation of days for which he received a cash payout at the time of his retirement.
Intermediate Units provide services and support for special education in school districts throughout the State. The NEIU supports 20 school districts in northeastern Pennsylvania.
Rosetti pled guilty on February 7, 2013, after entering into a plea agreement with the U.S. Attorney's Office.
In February 2013, Judge Mariani rejected Rosetti's binding plea agreement in which Rosetti would be sentenced to a 12-18 month range prison term. At that point, Rosetti was entitled to withdraw the plea. However, he chose not to do so.
As a result of his activities, Rosetti has lost a substantial portion of his pension benefits as a result of an action taken last fall by the Pennsylvania School Employee Retirement System after Rosetti's guilty plea.
U.S. Attorney Smith noted that the discovery and exposure of Rosetti's scheme was the result of a prompt and thorough investigation by the Pennsylvania Department of the Auditor General's Office of Special Investigations.
"This case is an example of how the investigating and auditing process works well when there is cooperation among government agencies," said PA Auditor General Eugene DePasquale. "I commend the professional investigators and auditors on our staff for their diligence and hard work."
A joint investigation by the Federal Bureau of Investigation (FBI), and the United States Department of Education - Office of Inspector General then followed. Prosecution of the case was assigned to Assistant United States Attorney Michelle Olshefski.
Judge Mariani ordered Rosetti to report to the Bureau of Prisons on April 4, 2013.
****
Top
Printable view
Last Modified: 03/08/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov